No. 19-255

Tr,
IN THE

Supreme Court of the United States

THOMAS MoRE LAW CENTER,
Petitioner,
v.
XAVIER BECERRA, ATTORNEY GENERAL OF THE STATE OF CALIFORNIA,

Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief for the
Petitioner Thomas More Law Center contains 12,984 words, excluding the parts of
the brief that are exempted by Supreme Court Rule 33.1(d).

Executed on February 19, 2021

Avy Lorn
Rory . GRAY

ALLIANCE DEFENDING FREEDOM
1000 Hurricane Shoals Road NE
Suite D-1100

Lawrenceville, GA 30043

(770) 339-0774
rgray@adflegal.org
